        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Evaluation Report
The Federal Energy Regulatory
Commission's Unclassified Cyber
Security Program - 2009




DOE/IG-0830                      October 2009 

                             Department of Energy
                                Washington, DC 20585

                                    October 29, 2009


MEMORANDUM FOR THE CHAIRMAN, FEDERAL ENERGY REGULATORY
                               COMMISSION

FROM: 	                 Gregory H. Friedman
                        Inspector General

SUBJECT: 	              INFORMATION: Evaluation Report on the "Federal Energy
                        Regulatory Commission's Unclassified Cyber Security Program – 2009"

BACKGROUND

The Federal Energy Regulatory Commission (Commission) is tasked with regulating and
overseeing important aspects of the U.S. energy industry. To help meet its goals and
objectives, the Commission utilizes varying types of information technology resources.
However, reliance on information technology, while certainly beneficial, often creates or
increases various risks. For example, cyber attacks against government systems and
assets continue to grow in frequency and have become increasingly sophisticated. The
Commission expects to spend over $4 million during Fiscal Year (FY) 2009 to help
mitigate this increasing threat and to secure its information technology assets.

The Federal Information Security Management Act of 2002 (FISMA) provides direction
to agencies on the management and oversight of information security risks, including
design and implementation of controls to protect Federal information and systems. As
required by FISMA, the Office of Inspector General conducts an annual independent
evaluation to determine whether the Commission's cyber security program adequately
protects its information systems and data. This memorandum and the attached report
present the results of our evaluation for FY 2009.

RESULTS OF AUDIT

In response to the deficiencies identified during our FY 2008 review, the Commission
had taken steps to improve its cyber security program. However, our current evaluation
revealed that additional actions are necessary to help ensure the Commission's network,
systems and data are adequately protected against increasingly sophisticated cyber
security attacks. Specifically, we found that:

   •	 Policies and procedures for handling and protecting certain types of sensitive data,
      including proprietary, privileged, and non-public information stored in or
      processed by the Commission's information systems had not been developed and
      implemented;
                                              2


      •	 Even though we had identified it as an issue over the past several years, the
         Commission's process for identifying, tracking, and correcting identified security
         weaknesses still did not fully adhere to Federal requirements and corrective
         actions were not always completed in a timely manner; and,

      •	 Access controls had not been fully implemented for the Commission's major
         information systems, all of which potentially contained sensitive data. For
         example, weaknesses were identified that could have permitted an individual with
         malicious intent to gain unauthorized access to systems and data.

These problems occurred, at least in part, because the Commission had not developed
policies and procedures to address all Federal requirements pertaining to information
security. In addition, officials had not always effectively implemented existing policy
and/or corrected previously observed weaknesses. For instance, policies and procedures
were not sufficient to protect all types of sensitive information. In addition, the
Commission's Plan of Action and Milestones process for addressing cyber security
weaknesses did not include all information necessary to ensure effectiveness. Absent
improvements, the risk to the agency's information systems and data remains higher than
necessary.

During the past year, the Commission had made progress in improving the cyber security
posture of its computing environment. For example, improvements were made to the
process for identifying, handling, and reporting cyber security incidents. In addition,
two-factor authentication was implemented for remote access to Commission systems
and encryption software was installed to protect information on laptops. While these
efforts are noteworthy, our report includes recommendations for additional actions which,
when fully implemented, should help strengthen the Commission's cyber security
posture.

Due to security considerations, information on specific vulnerabilities has been omitted
from this report. However, management officials have been provided with detailed
information regarding identified vulnerabilities, and in certain instances, initiated or
completed corrective action.

MANAGEMENT REACTION

Management concurred with the report's recommendations and disclosed that it had
initiated or already completed actions to address weaknesses identified in our report.
Management's comments are included in their entirety in Appendix 3.

Attachment

cc:    	Deputy Secretary
       Executive Director, Federal Energy Regulatory Commission
EVALUATION REPORT ON THE FEDERAL ENERGY REGULATORY
COMMISSION'S UNLCASSIFIED CYBER SECURITY PROGRAM -
2009


TABLE OF
CONTENTS

Commission's Unclassified Cyber Security Program

Details of Finding ............................................................................................................................1 


Recommendations and Comments...................................................................................................6



Appendices

1. Objective, Scope, and Methodology..........................................................................................7


2. Related Reports..........................................................................................................................9 


3. Management Comments ..........................................................................................................10 

Commission's Unclassified Cyber Security Program

Program                 During the past year, the Federal Energy Regulatory Commission
Improvements            (Commission) had made significant progress in improving its
                        cyber security program. Specifically, corrective actions had
                        been taken to address four of the five findings identified during
                        our Fiscal Year (FY) 2008 Federal Information Security
                        Management Act (FISMA) evaluation. Our current review
                        revealed improvements in the areas of incident response,
                        access controls, segregation of duties, certification and
                        accreditation, and configuration management. Specifically, the
                        Commission:

                           •	 Established policies and procedures for the
                              identification, handling and reporting of security
                              incidents; including performing negative reporting and
                              notifying the Department of Energy's Cyber Incident
                              Response Capability of all incidents that require
                              reporting;

                           •	 Developed and implemented policies for ensuring
                              appropriate segregation of duties over its Management
                              Administrative and Payroll System;

                           •	 Implemented the use of two-factor authentication for
                              remote access to its network and installed encryption
                              software on all laptop computers; and,

                           •	 Had taken steps to improve certain aspects of its Plan of
                              Action and Milestones (POA&M) process.

Risk Management         Despite the various improvements noted, additional
and Security Controls   action is needed to help ensure the Commission's cyber
                        security program adequately protects its systems and data
                        against internal and external threats. Specifically, areas of
                        concern identified during our FY 2009 evaluation include
                        protection of sensitive information, management of the
                        POA&M process, and the improvement of access controls.

                                      Protection of Sensitive Information

                        Over the past year, the Commission acquired encryption
                        software for laptops used at its Headquarters and field locations
                        and developed policies and procedures for handling and
                        protecting personally identifiable information (PII). These are
                        positive actions and should, if properly administered, help
                        protect PII. Our current evaluation, however, revealed that
                        policies were not in place to address the protection of other

________________________________________________________________
Page 1	                                           Details of Finding
                      types of sensitive information developed and/or handled by the
                      Commission. Specifically, we determined that not only had the
                      Commission not developed policy detailing how certain types
                      of information such as proprietary, privileged, and non-public
                      information should be protected, it was also unable to
                      document what types of information were to be considered
                      sensitive. Without descriptive policies, users may be unable to
                      determine what types of information require protection and
                      how such information should be secured.

                      The National Institute of Standards and Technology (NIST)
                      Special Publication 800-53, Recommended Security Controls
                      for Federal Information Systems, requires agencies to ensure
                      controls are in place for the protection of sensitive information,
                      especially data sent by email or transmitted off-site. Our
                      review disclosed, however, that absent policies describing what
                      types of information were considered sensitive, procedures or
                      technologies – such as encryption – were not in place for
                      protecting all types of sensitive information maintained in the
                      Commission's three major systems or the General Support
                      System. Each of these systems potentially contained sensitive
                      information and were rated as a "moderate" risk level
                      according to NIST Federal Information Processing Standard
                      199.

                                       Plan of Action and Milestones

                      Although numerous steps had been taken to improve POA&M
                      management, the Commission's process for identifying,
                      tracking, and correcting cyber security weaknesses still did not
                      fully satisfy Federal information security requirements. We
                      had previously reported on deficiencies in the POA&M
                      process, including instances of insufficient detail in the
                      POA&Ms, in our Evaluation Report on the Federal Energy
                      Regulatory Commission's Unclassified Cyber Security
                      Program – 2008 (DOE-IG-0802, September 2008). However,
                      our current review disclosed that Office of Management and
                      Budget (OMB) and NIST direction was not fully adhered to
                      when the Commission recently updated its POA&M process.
                      In particular:

                         •	 Contrary to NIST and OMB direction, POA&Ms
                            provided by the Commission did not contain required
                            information such as the severity of identified
                            weaknesses; estimated funding resources required to
                            resolve deficiencies; and, detailed milestones and

________________________________________________________________
Page 2	                                           Details of Finding
                             related completion dates for supporting overall
                             POA&M weaknesses. As noted in our prior year
                             findings, detailed information such as this is necessary
                             for management to adequately assess progress,
                             prioritize remediation activities, tie remediation to
                             budgeting and capital planning and investment
                             activities, and help ensure timely completion of
                             POA&M activities.

                         •	 POA&Ms contained generic information or insufficient
                            detail regarding actions necessary for remediation. In
                            particular, POA&M items did not contain detailed
                            milestones supporting the mitigation of noted
                            deficiencies. For example, even though the target
                            completion date for one entry had slipped by 22 months
                            because the level of effort required to complete this
                            activity was greater than anticipated, no milestones
                            were added to the POA&M to assist in tracking
                            progress. Furthermore, officials provided no estimates
                            on the amount of funding expected to complete the task.
                            Likewise, we noted that none of the 73 open POA&Ms
                            items contained specific milestones to aid in tracking
                            progress to completion. To their credit, officials had
                            instituted a new database to assist management with
                            tracking the status of corrective actions.

                         •	 A number of POA&M items were closed even though
                            remediation activities had not been completed. For
                            instance, between May and December 2008, the
                            Commission closed most POA&M items related to the
                            need to update each of its system security plans to
                            include all required NIST SP 800-53 controls.
                            However, our review of the security plans noted that
                            they had not been appropriately updated even though
                            the action was reported as completed.

                      As previously noted, the Commission did take steps to improve
                      the POA&M process over the past year. However, to help
                      ensure information needed to adequately manage identified
                      weaknesses within the organization's cyber security program is
                      accessible, additional action is necessary to enhance the
                      Commission's ability to correct identified weaknesses in a
                      timely manner.




________________________________________________________________
Page 3	                                           Details of Finding
                                                    Access Controls

                            We determined that the Commission had not fully implemented
                            effective access controls over its major information systems, all
                            of which potentially contain sensitive data. During our prior
                            year evaluation, we identified weaknesses in the area of
                            network account management. Although officials had taken
                            certain actions to remedy this issue, we continued to note that a
                            periodic review of user accounts and related access privileges
                            had not been conducted. While management's response to the
                            prior year finding indicated that this review was to have taken
                            place around October 2008, the planned review still had not
                            been completed as of the time of our review. Periodic reviews
                            are important to ensure access is terminated for those
                            individuals who no longer have a valid need to access sensitive
                            information or could cause harm and/or damage to
                            Commission systems.

                            In addition, we identified issues related to account modification
                            monitoring. In particular, even though required by Federal
                            regulations, the Commission had not deployed an automated
                            mechanism to audit account modifications for the General
                            Support System and notify appropriate individuals.
                            Specifically, access change authorizations were not logged,
                            thereby eliminating the ability of management to review them
                            for appropriateness. We also found that while a corrective
                            action item was included in the POA&M to apply account
                            management policies to all Commission systems that require
                            user authentication, the recently developed Account
                            Management Policy did not address review, audit, and
                            continuous monitoring of account modifications and change
                            access authorizations. Absent controls such as these, an
                            authorized individual may be able to gain or elevate levels of
                            access to the Commission's systems without detection.

Cyber Security Program 	The problems identified occurred, at least in part, because the
Implementation 	        Commission had not developed policies and procedures to
                        address all Federal requirements pertaining to information
                        security. When sufficient policies did exist, officials had not
                        always ensured that they were implemented.

                                                Policies and Procedures

                            Policies and procedures consistent with Federal cyber security
                            requirements had not always been developed by the
                            Commission. For instance, officials had not ensured that all

________________________________________________________________
Page 4	                                           Details of Finding
                      requirements for the protection of sensitive information had
                      been incorporated into agency policy and implemented by the
                      Commission. As previously noted, while the Commission had
                      developed policies related to the protection of PII, policies
                      were not adequate to ensure protection of other sensitive data
                      used by the agency. In addition, the recently developed
                      Account Management Policy did not address the review, audit,
                      or continuous monitoring of account modifications and change
                      access authorizations. We also found that because
                      Commission officials were unfamiliar with certain Federal
                      requirements, procedures for developing and maintaining
                      POA&Ms were not completely effective.

                                          Program Management

                      Officials had not always effectively implemented existing
                      policy and/or corrected all of the previously observed
                      weaknesses. Specifically, we found that not only were new
                      areas of concern identified during our current review, but
                      management had not adequately addressed previously
                      identified weaknesses. For instance, the Commission had not
                      taken corrective actions to address one finding issued during
                      our FY 2008 review related to access controls. In addition,
                      although certain steps were taken related to identified POA&M
                      weaknesses, we noted additional issues during our current
                      evaluation. The identified weaknesses were brought to
                      management's attention during our previous review; however,
                      action had not been taken to close all of the findings.

Systems and 	         The Commission had made significant progress during the past
Data at Risk 	        year in improving its overall cyber security program; however,
                      additional effort is needed as the risk to the agency's
                      information systems and data remains higher than acceptable.
                      For example, the lack of monitoring capabilities for user
                      account modifications, as well as the Commission not
                      identifying and/or disabling inactive user accounts could
                      increase the risk of unauthorized account creation and use. In
                      particular, we found that account administrators had the ability
                      to create new user accounts, modify data using that account,
                      and then delete the account without detection. Additional
                      improvements must be made by the Commission to comply
                      with Federal laws and regulations related to protecting
                      sensitive agency information. A lack of protection for this type
                      of information increases the risk of potential compromise or
                      use by unauthorized or malicious individuals.



________________________________________________________________
Page 5	                                           Details of Finding
                     The failure to correct identified weaknesses in a timely manner
                     also increases the risk that known security weaknesses will not
                     be corrected or mitigated. We found that the POA&Ms
                     provided by the Commission lacked information critical for the
                     agency to prioritize security deficiencies for mitigation. Our
                     review of POA&M items for the three major systems and the
                     General Support System revealed that 52 of the 73 open
                     POA&M completion dates had been pushed back – some for as
                     long as 23 months. Without additional improvements to the
                     POA&M process, management's ability to adequately assess
                     the performance of the program and ensure effective and
                     timely closure of weaknesses could be hindered.

RECOMMENDATIONS      The weaknesses discovered during our evaluation were
                     discussed with Commission officials. Notably, management
                     stated that it had taken actions to identify the types of sensitive
                     data used by the Commission and was working to implement
                     protective measures. However, to help ensure an effective
                     cyber security program, we recommend that the Commission's
                     Chairman take the following actions:

                        1.	 Complete actions to address vulnerabilities identified in
                            this report;

                        2.	 Revise and update cyber security policies and
                            procedures, as appropriate, to ensure consistency with
                            Federal cyber security requirements, particularly in the
                            area of protection of sensitive information; and,

                        3.	 Ensure that the POA&M process includes all required
                            information to properly identify, track, and monitor
                            actions to enhance the ability to complete corrective
                            actions in a timely manner.

MANAGEMENT           Management concurred with each of the report's
REACTION             recommendations. Management added that it had initiated or
                     completed actions designed to address weaknesses identified
                     during our review. In particular, management disclosed that it
                     was in the process of implementing enhanced monitoring of
                     access controls. In addition, management commented that it
                     had issued policy for protecting sensitive information and had
                     taken additional steps to further enhance its POA&M process.

AUDITORS 
           Management's comments were responsive to our
COMMENTS
            recommendations. Management's comments are included in
                     their entirety in Appendix 3.

________________________________________________________________
Page 6	                             Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Federal Energy Regulatory
                      Commission's (Commission) Unclassified Cyber Security
                      Program adequately protected data and information systems.

SCOPE                 The audit was performed between June 2009 and September
                      2009 at the Commission in Washington, D.C. Specifically, we
                      performed an assessment of the Commission's Unclassified
                      Cyber Security program. The evaluation included a review of
                      general and application controls in areas such as security
                      management, access controls, configuration management,
                      segregation of duties, and contingency planning. Our work did
                      not include a determination of whether vulnerabilities found
                      were actually exploited and used to circumvent existing
                      controls.

METHODOLOGY
          To accomplish the audit objective, we:

                           •	 Reviewed Federal laws and regulations related to
                              controls over information technology (IT) security
                              such as the Federal Information Security
                              Management Act, Office of Management and Budget
                              Memoranda, and National Institute of Standards and
                              Technology standards and guidance;

                           •	 Reviewed the overall cyber security program
                              management, including the Commission's policies,
                              procedures and practices;

                           •	 Held discussions with officials from the Commission
                              and reviewed relevant documentation;

                           •	 Evaluated the Commission in conjunction with its
                              annual audit of the Financial Statements, utilizing
                              work performed by KPMG LLP (KPMG), the Office
                              of Inspector General's (OIG) contract auditor. OIG
                              and KPMG work included analysis and testing of
                              general and application controls for the network and
                              systems and review of the network configuration;
                              and,

                           •	 Reviewed reports by the OIG and the Government
                              Accountability Office.

                      We conducted this evaluation in accordance with generally
                      accepted government auditing standards. Those standards
                      require that we plan and perform the effort to obtain sufficient,

________________________________________________________________
Page 7	                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      appropriate evidence to provide a reasonable basis for our
                      findings and conclusions based on our objective. We believe
                      that the evidence obtained provides a reasonable basis for our
                      findings and conclusions based on our objective. Accordingly,
                      we assessed significant internal controls and the Commission's
                      implementation of the Government Performance and Results
                      Act of 1993 and determined that it had established performance
                      measures for IT project management. Because our evaluation
                      was limited, it would not have necessarily disclosed all internal
                      control deficiencies that may have existed at the time of our
                      evaluation. We did not rely solely on computer-processed data
                      to satisfy our objectives. However, in those instances where
                      we did utilize computer-processed data, we confirmed the
                      validity of the data, when appropriate, by reviewing supporting
                      source documents.

                      An exit conference was held with Commission officials on
                      October 27, 2009.




________________________________________________________________
Page 8                             Objective, Scope, and Methodology
Appendix 2

                                   RELATED REPORTS


  •	   Evaluation Report of The Federal Energy Regulatory Commission's Unclassified
       Cyber Security Program- 2008 (DOE/IG- 0802, September 2008). The Federal
       Energy Regulatory Commission (Commission) had taken action to improve cyber
       security practices and implemented protective measures designed to defend its
       networks against malicious attackers and other external threats. Our evaluation,
       however, disclosed that additional actions were needed to reduce the risk of
       compromise to the Commission's business information systems and data to an
       acceptable level. These problems existed because the Commission had not fully
       developed or implemented all current Federal cyber security requirements. In
       response to our inquiries, management stated that due to the recent departure of a
       large number of information technology (IT) staff, insufficient attention had been
       given to ensuring that existing policies and procedures were implemented. We made
       several recommendations designed to assist in achieving this goal.

  •	   Evaluation of The Federal Energy Regulatory Commission's Cyber Security Program
       -2007 (OAS-L-07-23, September 18, 2007). Overall, we continued to note
       improvements in the Commission's cyber security program. During our evaluation,
       we found that a major financial processing financial system had undergone a
       significant software upgrade in 2005, but the system had not been recertified and
       reaccredited for operation. Because of the nature of the software upgrade, significant
       changes occurred both in the manner which data was processed and how it was
       transmitted – a situation that could have potentially introduced security vulnerabilities
       or increased the risk associated with system operation. In response to our query
       regarding the system upgrade, Commission officials provided evidence that they had
       started a comprehensive recertification process in January 2007, and had completed a
       number of important parts of the effort. Since corrective actions were well underway,
       we did not make any recommendations. However, we suggested that the Executive
       Director ensure that the ongoing risk assessment and re-certification of the system
       fully consider the risk posed by the software upgrade and modify system controls, if
       necessary.

  •	   Audit Report: Management Controls over the Federal Energy Regulatory
       Commission's Unclassified Cyber Security Program- 2006 (OAS-M-06-10,
       September 2006). The Commission continued to strengthen its cyber security
       program and had completed action on several issues identified during prior reviews.
       However, the evaluation disclosed several opportunities to improve the effectiveness
       and decrease the risk associated with the Commission's cyber security program in the
       areas of access controls and security assessments. These vulnerabilities existed
       because the Commission had not ensured that certain aspects of its cyber security
       program conformed to either Federal or Commission requirements or guidelines.
       Weaknesses such as the ones we discovered detract from the overall effectiveness of
       the Commission's cyber security program and potentially expose its IT resources and
       data to compromise.



___________________________________________________________________
Page 9 	                                              Related Reports
                             FEOLRAL         F. Y RE il           o y
                                             WA HINGT            ,r. 20416

  Ai e () the                                                                                   October 8, 2009
F e :tl\ive lJirectl r


MEMORANDUM TO :	                      Rickey R. Hass
                                      Deputy inspector General

FROM	                                 Thomas R. Herlihy
                                      Execut.ive Director

SUBJECT	                             Management Comment.s on DOEIG Draft Evaluation
                                     Report titled ''The Federal Energy Regulat.ory Commission's
                                     Unclassified Cyber Security Program - 2009"

We appreciate the opportunity to respond to the subject draft repon. As you noted in the report. the
Federal Energy Regulatory Commission (FERC) hos token a number of actions to improve its cyber
security practices and to maintain a strong network defense against malIcious intruders and other external
threats. We acknowledge the IG findings and recommendations and thank the auditors for thc-ir assistance
in helping the Commission improve its security posture.

Based On the results of this evaluation, and the Commission's subsequent actions to implement the JG
recommendations, we believe the FERC has an effective security program that meets Ule requirements of
FISMA. We are committed to safeguarding our IT infrastructure and to maintaining a robust cyber
security program. Our specific responses to your audit are included below. If you require further
assistance please contact Matl Sweet at (202) 502-8926.



                         '10. 1: Complete actions to address vulnerabilities identified in this report.

FERC concurs, and has taken the following corrective actions to address the access control vulnerabilities
identified in this report:

    I)	 DeH'lop and Implement accouut mouitoriug policy and procedures: As discussed during the
        audit, the Commission recently updated its IT Audit Log Policy, and is implementing an
        automated log management framework to mitigate the Commission's identified audit log
        weaknesses. The Commission is currently completing t.he documentation and testing activities
        associated with this implementation the Audit Log Management task. The Commission
        acknowledges tbat the current Account Management Policy (FERC IT Account Managem.ent
        Policy, February 23, 2009) does not adequately define the requirement to record and audit user
        account modifications, however the Commission bas addres~cd this requirement in the recently
        created IT Audit Log Policy (FERC IT Audit Log Policy, February 1R. 2009) and forthcoming
        audIt log procedures. Additionally the Commission is updating its Account Management Policy
        to refine the requirement to record <lnd audit LiseI' account modifications.

         The IT Audit Log Policy defines at a high level what information and what types of devices
         require logging while the forthcoming procedures are to provide details on how logging is
         performed (tools used), who performs the log monitoring, type of events to monitor. frequency,
         and retention procedures.
        The Commission is in the process of updating the Account Management Policy, IT Audit Log
        Policy and supporting procedures to ensure that it explicilly defines the requirements for the
        capture and management review of account modification events. Both policies and supporting
        procedures will be updated by 12/31/2009. The Commission is progressing to fully remediate
        this vulnerability.

    2)	 Perform a Commission-wide periodic review of all user accounts and related access
        privileges: The annual recertification of all accounts, that was incomplete at the time of the audit,
        was completed on 9/30/2009.

    3)	 Protection of Sensitive Information: Addressed as part of implementing Rccorrunendation 2.

    4)	 Plnn of Action and Milestones: Addressed as pan of implementing Recommendation 3.


RECOM 1ENDATION 2 - Revise and update cyber security policies and procedures as appropriate, to
enSure consistency with Federal cyber security requirements, particularly in the area of protection of
sensitive information.

FERC cOncurs with the Protection of Sensitive Information recommendations provided and has taken the
following corrective actions to implement them:

    I)	 The Commission has issued a policy to define what types of information should be considered
        sensitive and how this information should be protected during transmission. The Security and
        Systems Assurance Division will work with system owners to ensure the development and
        implementation of the appropriate procedures to comply with these policies as required.

    2)	 By policy the Commission does not allow transmission of sensitive data, however to overcome
        this limitation, the Commission is evaluating various technologies to ensure adequate protection
        of sensitive data during transmission.


RECOMMENDATIO 3 - Ensure that the Plan of Action and Milestones (POA&M) process includes
all required information to properly identify, track, and monitor actions to enhance the ability to complete
corrective actions in a timely manner.

FERC concurs in principle with the POA&M recommendations provided by the IG and has taken the
following corrective actions:

    I)	 Update POA&M Reporting Template: The Commission developed and implemented a C&A
        Policy (FERC Cerrijicat;on. & Accreditation Policy, March 10.2009), C&A Handbook (FERC IT
        Certification & Accredirar;on (C&A) Han.dbook, April 20, 2009) and a customized POA&M
        Reporting Database Tool during FY2009 in order to mitigate last years' POA&M findings.

        The C&A policy directs Commission staff to document POA&Ms and manage the mitigation of
        vulnerabilities identified through the C&A process (section 3). The Handbook details the
        methodology and steps required to complete a C&A -including continuous monitoring (section 8)
        and management of POA&Ms (section 5.5).




                                                      2

   The FERC POA&M database tool provides managelnent with the ability to track and repol1 on all
   POA&Ms and POA&M related information such as:
        •	   NIST 800-53 control requirements, test results, test 311ifacts, test dates, and cOl1trol
             severity level.
        •	   POA&M Milestone - milestone and task details

        •	   POA&M ownership: the person responsible for planning and implementing tasks
             associated with closing the milestone.
        •	   Estimated target completion dates: the date submitted by the POA&M/milestone owner
             intended to identify when a task is expected to be completed.
        •	   Current Due Date: the date submitted by POA&Mlmilestone owner intended to identify
             the "updated" due date with a documented accounting of delays and new target dates.
        •	   POA&M closed dates - Date the milestone was closed.

       The Commission recognizes the fact that while we currently capture and review "severity"
       levels in the POA&M database tool, we do not currently provide repot1ing of the "severil)'''
       data field on the POA&M reporting template. The Commission also recognizes the OMB
       requirement to add a "budget" field to our POA&M template. The POA&M report has been
       updated to include these required fields.

       The Commission also understands that, even though we actively use widely-accepted project
       management reporting tools (e.g. Project Management Plans and an executive dashboard) to
       provide management with effective project oversight and up to date milestone activity details,
       we are still required to further document these milestones on the POA&M report. The
       Commission has already updated the reporting template to meet the IG' s recommendation.

2)	 Ulldate and implement policies and procedures on POA&M management:
    As detailed above, the Commission recently developed and implemented its POA&M C&A
    policies and procedures in FY 2009 to include POA&M management. The Commission
    recognizes the need to update its documentation and implement the required changes as identified
    above. Utilizing periodic audits and enhanced communication with management, we will ensure
    the policies are implemented correctly.




                                                   3

                                                             IG Report No. DOE/IG-0830

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding
    this report?

2.	 What additional information related to findings and recommendations could have
    been included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's
    overall message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the
    issues discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should
    we have any questions about your comments.


Name	                                         Date

Telephone 	                                   Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
